<html>
<title> - THE JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT: PRESERVING POTENTIAL, PROTECTING COMMUNITIES</title>
<body><pre>[Senate Hearing 113-789]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-789

                  THE JUVENILE JUSTICE AND DELINQUENCY
     PREVENTION ACT: PRESERVING POTENTIAL, PROTECTING  COMMUNITIES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2014

                               __________

                        PAWTUCKET, RHODE ISLAND

                               __________

                          Serial No. J-113-64

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-756 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          












                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director

















                            C O N T E N T S

                              ----------                              

                        JUNE 9, 2014, 9:09 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1

                               WITNESSES

Witness List.....................................................    27
Bedrosian, Honorable Haiganush R., Chief Judge, Rhode Island 
  Family Court, Providence, Rhode Island.........................    10
    prepared statement...........................................    40
Bryant, Elizabeth Burke, Executive Director, Rhode Island KIDS 
  COUNT, Providence, Rhode Island................................    13
    prepared statement...........................................    46
Duoa, Osbert, Providence, Rhode Island...........................    18
    prepared statement...........................................    50
Listenbee, Robert L., Administrator, Office of Juvenile Justice 
  and Delinquency Prevention, Office of Justice Programs, U.S. 
  Department of Justice, Washington, D.C.........................     3
    prepared statement...........................................    28

                       SUBMISSIONS FOR THE RECORD

Division of Juvenile Correctional Services, Rhode Island 
  Department of Children, Youth & Families, Providence, Rhode 
  Island, testimony..............................................    52
Rhode Island for Community & Justice, Toby Ayers, Ph.D., 
  Executive Director, and Program Director, Juvenile Justice DMC 
  Diversionary Coalition, Providence, Rhode Island, June 12, 
  2014, letter...................................................    61
Rhode Island for Community & Justice, Shanna Wells, M.Ed., Mental 
  Health Subcommittee Chair, and Executive Director, West End 
  Community Center, Inc., and Toby Ayers, Ph.D., Executive 
  Director, and Project Director, DMC Diversionary Project, 
  Providence, Rhode Island, June 12, 2014, letter................    65
Rhode Island Department of Children, Youth and Families, Janice 
  DeFrances, Ed.D., Director, Providence, Rhode Island, June 16, 
  2014, letter...................................................    64
 
                  THE JUVENILE JUSTICE AND DELINQUENCY
      PREVENTION ACT: PRESERVING POTENTIAL, PROTECTING COMMUNITIES

                              ----------                              


                          MONDAY, JUNE 9, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:09 a.m., at the 
Tides Family Services, 242 Dexter Street, Pawtucket, Rhode 
Island, Hon. Sheldon Whitehouse, presiding.
    Present: Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE,
         A U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. This hearing of the Senate Judiciary 
Committee will come to order, which is easy for me to do since 
I am the only Member present, so I bring myself to order.
    [Laughter.]
    Senator Whitehouse. It is terrific to be here with 
everyone. I want to particularly thank Brother Michael Reis and 
the staff at Tides Family Services for hosting us here today 
and for the extraordinary work they do with young people here 
in Rhode Island.
    This is a field hearing of the Senate Judiciary Committee 
on the Juvenile Justice and Delinquency Prevention Act. It is a 
pleasure for me to chair this here in Rhode Island and showcase 
some of the strides that Rhode Island has taken when it comes 
to juvenile justice and to examine what more can and should be 
done as we reauthorize this piece of legislation.
    I am very honored--I will mention our witnesses later when 
they come on, but in addition to a very distinguished panel of 
Rhode Island witnesses, I am very honored that we are joined by 
United States Attorney Peter Neronha, by State Senator Roger 
Picard, by Chief Brian Sullivan from Lincoln, Chief Paul King 
here from our city of Pawtucket--where this hearing is taking 
place--Chief James Mendonca from Central Falls, Chief Stephen 
McCartney from Warwick, Superintendent Giovanna Donoyan from 
Woonsocket, and former chief and former head of the Bureau of 
Criminal Investigation Vin McAteer. And I would also recognize 
Teny Gross, whose Institute for the Study and Practice of 
Nonviolence does such terrific work with young people on our 
streets as well. But everybody here has expertise and something 
to contribute when it comes to juvenile justice, so I 
appreciate very much that you are all here.
    We are here to try to make sure that we can do our best to 
keep kids out of youthful trouble, both by helping ensure that 
they have the opportunity to achieve their potential and become 
productive adult members of society.
    Juvenile justice is largely a province of the States, but 
the Federal Government has an important role to play in 
guaranteeing certain standards for the care and custody of 
youth. The Juvenile Justice and Delinquency Prevention Act, 
which we call ``JJDPA,'' is the most important piece of Federal 
legislation in this area. It authorizes Federal resources for 
States and communities seeking to improve their juvenile 
justice systems and prevent children from coming into contact 
with those systems in the first place.
    The legislation celebrates its 40th birthday this summer, 
but it has not been reauthorized since 2002, so there are 12 
years of more experience that has not yet been incorporated in 
this legislation. Reauthorization would allow us the chance to 
examine current policies in light of recent experience, and I 
plan to introduce bipartisan legislation to do that very soon.
    This hearing will bring Rhode Island voices formally into 
that process, and with these terrific witnesses, we have a lot 
to add.
    When JJDPA was enacted in 1974, the legislation established 
four core protections: the deinstitutionalization of status 
offenders, removal of most juveniles from adult jails, sight 
and sound separation from adults for those juveniles who are 
placed in adult facilities, and a requirement to assess and 
address disproportionate minority contact with the juvenile 
justice system.
    I look forward to hearing from our witnesses how the four 
core protections should be updated or strengthened. Do they 
adequately take into account the needs of all vulnerable 
populations? Should we do more to ensure that mental health and 
substance abuse needs are addressed through State juvenile 
justice systems? Can detained youth continue their education 
without undue interruption? These are some of the questions I 
hope Rhode Island experience can help answer.
    As a former prosecutor, I understand the importance of 
holding individuals accountable for their conduct. However, I 
also know that when we are talking about young offenders, the 
evidence shows that treating them like adults and incarcerating 
them like adults increases the likelihood that they will 
reoffend in the future. Scientific research has shown that 
adolescent offenders are not like adult offenders and that 
risk-taking activity, including criminal activity, is often a 
transient characteristic of adolescence itself.
    We know that up to half of all juvenile offenders have 
experienced trauma, with incidences of PTSD particularly high 
among girls, and we know that as many as 70 percent of 
adolescents in the juvenile justice system have diagnosable 
mental health needs, and as many as 80 percent have a history 
of substance abuse.
    We know that minorities continue to be overrepresented in 
the juvenile justice system, and we know that when a youth is 
suspended or expelled from school, that youth's likelihood of 
becoming caught up in the justice system increases 
significantly.
    We know that a strong juvenile justice system should 
include a continuum of care that incorporates developmentally 
appropriate placement, comprehensive mental health and 
substance abuse services, opportunities for continuity in 
education, and effective reentry planning.
    I am proud to say that Rhode Island is experiencing a 
downward trend in the number of youths referred to family court 
for wayward and delinquent offenses, as well as a steep decline 
in the number of youths placed in the care or custody of the 
Training School, our secure facility for youth in the juvenile 
justice system. Alongside the decrease in incarceration, crime 
has fallen sharply in this population as a result of the use of 
such alternative strategies.
    I want to thank Chairman Leahy of the Senate Judiciary 
Committee for authorizing this hearing to take place in Rhode 
Island and for his support for reauthorization of the JJDPA.
    I also want to thank Ranking Member Grassley for his 
cooperation in planning this hearing.
    We welcome Administrator Robert Listenbee from the 
Department of Justice's Office of Justice Programs' Office of 
Juvenile Justice and Delinquency Prevention. He has traveled 
here to participate in this hearing, and he has a longstanding 
commitment to protect public safety while improving outcomes. 
And I extend my warm thanks and appreciation to our Rhode 
Island witnesses, Chief Family Court Judge Haiganush Bedrosian, 
Elizabeth Burke Bryant, and Osbert Duoa, for their willingness 
to testify and share their valuable and varied experiences. 
Your voices and perspectives will help inform our efforts back 
in Washington.
    I look forward to hearing from our witnesses and to working 
with partners on both sides of the aisle in Washington toward 
reauthorization legislation that is based on best practices and 
scientific evidence.
    And now, if I could ask Robert Listenbee to come to the 
microphone and be sworn in. Do you affirm that the testimony 
you will give before this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Listenbee. I do.
    Senator Whitehouse. Please be seated.
    Robert Listenbee is the Administrator of the Office of 
Juvenile Justice and Delinquency Prevention at the Department 
of Justice's Office of Justice Programs. Before his appointment 
to OJJDP, Mr. Listenbee was chief of the Juvenile Unit of the 
Defender Association of Philadelphia for 16 years and was a 
trial lawyer with the association for 27 years. He was 
instrumental in creating the Juvenile Defender Association of 
Pennsylvania. Mr. Listenbee served as co-chair of the Attorney 
General's National Task Force on Children Exposed to Violence 
and as a member of the Federal Advisory Committee on Juvenile 
Justice, which advises the President and Congress. He received 
his bachelor of arts from Harvard University and his law degree 
from Boalt Hall School of Law at the University of California, 
Berkeley, and we welcome him to Rhode Island.
    Mr. Listenbee, please proceed with your statement.

        STATEMENT OF ROBERT L. LISTENBEE, ADMINISTRATOR,
 OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION, OFFICE 
 OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, 
                              D.C.

    Mr. Listenbee. Thank you, Chairman Whitehouse.
    To Chairman Whitehouse and other distinguished Members of 
the Committee, I would like to thank you for this opportunity 
to discuss juvenile justice reform and the Department of 
Justice's support for the reauthorization of the Juvenile 
Justice and Delinquency Prevention Act.
    I am, as the Senator indicated, Robert Listenbee, 
Administrator of the Office of Juvenile Justice and Delinquency 
Prevention within the Department of Justice's Office of Justice 
Programs. As you know, and as the Senator indicated, in 1974 
Congress enacted the Juvenile Justice and Delinquency 
Prevention Act which established our office. I am pleased to 
speak with you today as we approach the 40th anniversary of 
that landmark legislation.
    As a former defender and trial lawyer with nearly 30 years 
of service, I have dedicated myself to seeking justice for 
youth involved in the juvenile justice system--a system that 
often revictimized youth in the name of accountability. We know 
that a number of factors place youth at a higher risk of 
entering the juvenile justice system including childhood 
exposure to violence, mental health problems, substance abuse, 
and cognitive disabilities.
    Research suggests that more than 50 percent of these kids 
will reoffend and that detention and out-of-home placement can 
worsen preexisting mental and emotional problems.
    During my tenure at the Defender Association of 
Philadelphia, I created a specialized unit to deal with 
juvenile sex assault cases and was instrumental in developing 
three specialty court programs that diverted youth out of the 
juvenile justice system and reduced their risk of residential 
placement.
    In my role as Administrator, I have drawn from these 
experiences, and they have informed my priorities and goals for 
advancing the work of this office.
    OJJDP's vision is that of a Nation where all our children 
are healthy, educated, and free from violence. Should they come 
into contact with the juvenile justice system, that contact 
should be rare, fair, and beneficial to them. To implement this 
vision, I have articulated five major priorities to support 
State and local efforts: first, maintain public safety; second, 
adopt a developmental approach to juvenile justice reform; 
third, integrate evidence-based research in all programs, 
grants, and initiatives; fourth, reduce youth violence and its 
impact on children in homes, schools, and communities, while 
developing programs that address trauma and provide trauma-
informed care; and, fifth, reduce disproportionate minority 
contact and eliminate racial and ethnic disparities.
    The Department strongly supports the reauthorization of the 
Juvenile Justice and Delinquency Prevention Act. OJJDP has 
worked closely with Congress in support of their efforts to 
reauthorize the JJDPA. Our office has heard from juvenile 
justice organizations and practitioners who strongly support 
juvenile justice reform and reauthorization of the JJDPA.
    While much can be accomplished through the reauthorization, 
there are some very specific items which OJJDP believes are 
crucial and critical to juvenile justice reform and public 
safety. Among these are:
    Promote the use of evidence-based interventions and 
prevention programs and provide appropriate services for youth 
while ensuring safety within communities;
    Provide enhancements to the Disproportionate Minority 
Contact core requirement;
    Enhance services and support indigenous and culturally 
based practices to assist American Indian and Alaska Native at-
risk youth;
    Improve youth access to qualified legal representation;
    Phase out the Valid Court Order exception;
    Treat youth charged with minor in possession as status 
offenders;
    Encourage the use of community-based alternatives to 
detention, especially those charged--where youth are charged 
with status offenses;
    And enhance the availability of juvenile reentry services 
and provisions that recognize the need for gender-responsive 
programs.
    As Administrator, I believe that OJJDP has a crucial role 
to play in fostering and encouraging juvenile justice reform. 
Juvenile justice professionals throughout the Nation have 
embraced the need for evidence-based practices and adopting 
developmentally appropriate approaches to juvenile justice 
reform. OJJDP has embraced this rising tide of system reform 
and transformation because it is evidence-based, it promotes 
public safety, and it provides positive outcomes for youth.
    In conclusion, I believe we have seen some encouraging 
trends in the decline in youth in custody, the increase in 
States' compliance with core requirements, and promising reform 
efforts by the States. However, there is still much to be done 
in a number of areas to include the need to address children's 
exposure to violence; racial and ethnic disparities; and trauma 
and trauma-informed care, just to name a few. Our office is 
diligently working with our partners at the State, local, and 
tribal levels to address these issues. Reauthorization of the 
Juvenile Justice Delinquency Prevention Act will strengthen the 
core requirements and provide the necessary funding to support 
these important juvenile justice programs. I would like to 
thank you for the opportunity to testify before the
    Committee on this important issue. I would also like to 
thank the U.S. Attorney, Providence officials, Pawtucket 
officials, and Brother Michael Reis of the Tides Family 
Services for welcoming us here today.
    Thank you.
    [The prepared statement of Mr. Listenbee appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Mr. Listenbee.
    I overlooked, which is really bad of me, mentioning 
Magistrate Angela Bucci Paulhus, who was here from the very 
beginning, who used to work for me in the Attorney General's 
office, and we worked together in the Attorney General's office 
as well, so I want to recognize her.
    And I also want to recognize a former DCYF Director, Linda 
D'Amario Rossi, who has come, and she, in addition to being a 
former DCYF Director, is also the Chair of the Board of Tides. 
So, Linda, thank you very much for being here.
    Mr. Listenbee, you have mentioned some very specific 
changes that you would propose that we incorporate in the 
legislation. In terms of the implementation of the VCO 
sanction, do you see any adult models in probation that make 
sense to use as a template?
    Mr. Listenbee. Well, Senator, in terms of the valid court 
order exception, this is a provision that allows for status 
offenders to be held accountable by judges if they fail to 
comply with judicial orders. Our goal in this matter is to 
phase out the valid court order exception so that there is an 
opportunity for everyone to become familiar with the new rules 
and regulations. We would also like to stress that during the 
time that this phase-out is occurring, no child should be held 
in excess of 7 days during the phase-out period.
    Specifically, Senator, I am not familiar with any adult 
practices that provide really good models at this time. If 
there are some, we would hope that the field and 
representatives from throughout Rhode Island and other places 
will provide us with some information on them. We would 
certainly like to take a look at them.
    Senator Whitehouse. Okay. It is somewhat of an analogy with 
a probation violation for an adult offender in that you can be 
brought in very quickly and incarcerated for a violation of 
probation or a violation of a valid court order, correct?
    Mr. Listenbee. Correct, Your Honor. I mean, correct, 
Senator.
    Senator Whitehouse. Too long in a courtroom, Mr. Listenbee.
    [Laughter.]
    Mr. Listenbee. Senator, I spent a lot of years in a 
courtroom handling thousands of cases, so it does come as a 
reflex.
    Senator Whitehouse. Take a look at the HOPE program in 
Hawaii that was run by Judge--I want to say--I have got Almey 
on the brain, but that is Steve Almey who drives me. He has got 
a name very like that. He was the U.S. Attorney in Hawaii when 
I was there, and I will get you his name. It has, I think, been 
very effective in probation violation by making the system much 
more rapid and responsive. Quick, small sanctions seem to work 
better than a lot of process, and then a big sanction. And 
treads more lightly on both the individual before the court and 
the system and the taxpayer. So we will work with you on that.
    Mr. Listenbee. Senator, one of the experiences I had was 
the creation of a graduated response court for young people who 
violate and were charged with violating probation, technical 
violations of probation, and, again, in that situation it was 
for rapid response, graduated, so there was not immediate 
custody for the child. And I think these kinds of responses 
worked very well with young folks, as long as you have a 
continuum of responses that are appropriate and age-appropriate 
for the young people we are dealing with.
    Senator Whitehouse. We are seeing a cultural shift in terms 
of how our country perceives addiction to alcohol and drugs. A 
lot of the shame and stigma is going away, and the success of 
recovery programs is becoming clearer and clearer. And I am 
working on recovery legislation, recovery and rehab legislation 
in Washington right now.
    What should we be looking at, do you think, in terms of--we 
have had a drug court here that has worked very effectively in 
Rhode Island, and we have other interventions like a new 
veterans court that provide a diversion into recovery services 
very quickly. That seems to me to be a good process. Are there 
different considerations that the Department perceives when 
dealing with juveniles?
    Mr. Listenbee. Senator, with juveniles, I think one of the 
most important things we can do is when juveniles come in 
contact with the system, very early on have appropriate 
assessments to determine what their needs are. If their needs 
involve addictions, we need to make sure that they get to the 
right place at the right time to get the right services to 
address those addiction issues.
    Among the possibilities certainly are drug courts. Juvenile 
drug courts have come a long way. We have been focusing on 
these issues within the Office of Juvenile Justice and 
Delinquency Prevention within the last year. We brought 
together researchers and practitioners to develop standards and 
practices and procedures that are age-appropriate for 
juveniles. So we are working to develop models that actually 
work and that can be replicated throughout the Nation. We are 
very fortunate to have funding from Congress for this issue, 
and we anticipate going forward that we will be able to be very 
successful in this area.
    But, again, early assessment, identification of the issue, 
and appropriate treatment with the right kind of services at 
the right time is really what is critical. And we know that if 
we do it early on, we are not as likely to have young people 
come back into the system if this issue is addressed.
    I was very fortunate to have worked to help create a drug 
court with prosecutors and law enforcement in Philadelphia, and 
we have had over 1,000 kids go through the program. One of the 
most exciting things I have seen in my entire tenure as a 
public defender was graduation day at drug court where you 
would see young people come and indicate to the court how 
important it was for them to have been through the process, 
even though many of them went into placement for short periods 
of time, and also to see their families there and to recognize 
that they were getting their kids back.
    Senator Whitehouse. When you have spent some time in the 
courtroom, the difference between the outcomes of the 
individual before the court going out the back door in silence 
and in manacles and going back out the front door of the 
courtroom surrounded by cheering family and friends is a 
remarkable contrast, and it is something that, when you have 
seen both, it is unforgettable, isn't it?
    Mr. Listenbee. Yes, it is, Senator. And one of the things 
that we are able to do, which I would like to stress, for drug 
courts is we were able to take those young people who were in 
their senior year of high school and work with them diligently 
to ensure that they were able to recover credits for their 
placement time in juvenile programs and able to actually get 
their degrees by having an intensive educational component.
    So being able to do that and watch them both go through 
drug court and graduate there and then go into the high school 
and graduate from the high school was really an honor and a 
privilege to do that.
    Senator Whitehouse. One last question. The role of the 
Federal Government in JJDPA is in some respects secondary to 
the primary role of State officials. It is viewed as a support 
and, to a degree, a constraint on State behavior. And because 
what we do in the Federal Government can affect what 50 
different States do, which may have different ways of 
addressing the problem, you do not want to tighten down the 
crank too hard so that you lose your opportunity for innovation 
and discovery, particularly if this is a statute that is only 
going to be reauthorized every dozen years.
    So that gives OJJDP an important role in the implementation 
of this. What advice do you have for the Committee in terms of 
the areas in which you think it is so well established that we 
can afford to be fairly directive versus areas in which we 
should leave more flexibility to the States to continue to find 
the best way to solve these problems and a way, to use your 
good phrase, that causes these encounters to be rare, fair, and 
beneficial?
    Mr. Listenbee. Well, Senator, first of all, I would like to 
stress that the core requirements remain, and that your 
Committee should help us develop sort of a clearer 
understanding and mechanisms for implementing those core 
requirements.
    The one that we have had the least success on has been 
disproportionate minority contact and dealing with racial and 
ethnic disparities. We would like to enhance the requirements 
to the States on that particular requirement. We think that 
there are a lot of new and innovative approaches that are 
available now. Through OJJDP, we are concentrating our 
resources, our training and technical assistance on this 
particular requirement, and we expect that with the sort of 
enhanced clarity about what we can do in that area, we will 
make a difference.
    I think the States have been doing a pretty good job of 
implementing reforms across the Nation. The difficulty they 
have had is developing comprehensive statewide reform as 
opposed to reform in specific areas on specific topics. For 
example, in some States there is reform on the support of 
school discipline issues, something called ``the School-to-
Prison Pipeline.'' In some States there is reform in terms of 
comprehensive statewide reform, like in Georgia and Texas. But 
it still has not gone throughout every county in the State, and 
I think that what we can do from OJJDP and where I would 
encourage you to have some flexibility is to allow us to use 
training and technical assistance, research guidance, and 
financial support to encourage and incentivize the States to 
bring about statewide reform as opposed to directing them to do 
it.
    The States have good models in some places. We are 
borrowing from one State, sharing it with another State, and we 
look to have peer-to-peer counseling and support. We have some 
dynamic work going on out there. What we are trying to do at 
the OJJDP level is to consolidate those reforms, set forth a 
comprehensive strategy for them, and then to provide that 
strategy to the States. But we need the encouragement and 
support of the Committee to do that. We hope that States will 
realign their policies with this new reform strategy. But they 
need to make their own choices. There is a lot of wisdom out 
there in the States. I do not think that we in Washington have 
all the wisdom necessary to tell them exactly what to do.
    Senator Whitehouse. It is an important balance to maintain, 
and I look forward to working with you. You will be the prime 
liaison with the Department of Justice as we reauthorize this 
bill, and I appreciate very much your terrific work in this 
area over many years. I look forward to working with you as we 
reauthorize the bill, and I am grateful to you for coming up to 
Rhode Island, and I hope you have the chance to stick around, 
because it will be a treat to hear the Rhode Island witnesses.
    Mr. Listenbee. I plan to stick around, Senator. Thank you 
very much. I appreciate it.
    Senator Whitehouse. Thank you very much. You are excused, 
and we take a minute to reset the table for the second panel.
    [Pause.]
    Senator Whitehouse. I should say as a matter of record, 
while we have a senior Department of Justice official here, how 
pleased we are with our United States Attorney and what an 
excellent job he is doing here in Rhode Island.
    [Applause.]
    Senator Whitehouse. Thank you. Let the record reflect that 
the comment was met with applause from the audience, so not 
just dead silence. Very, very good.
    Senator Whitehouse. All right. Let me call the second 
panel. Do you all affirm that the testimony you are about to 
give before this Committee will be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Judge Bedrosian. I do.
    Ms. Bryant. I do.
    Mr. Duoa. I do.
    Senator Whitehouse. Thank you very much. Welcome and please 
be seated.
    We will hear first from Judge Haiganush Bedrosian, who was 
appointed chief judge of Rhode Island's Family Court in 
December 2010, having served as an associate justice of the 
court for 30 years. She began her professional career after 
receiving her bachelor of arts degree while teaching elementary 
school for 6 years. After graduating from Suffolk University 
Law School, she served as law clerk to the Honorable Thomas J. 
Paolino, Associate Justice of the Rhode Island Supreme Court. 
In private practice, she specialized in family law cases, often 
appointed by family court judges to represent the interests of 
a parent whose children were in the custody of the State or to 
act as guardian ad litem to the children placed in the care of 
Child Protective Services.
    Chief Judge Bedrosian has taught law courses at local 
colleges. Before her appointment to the bench, Chief Judge 
Bedrosian was employed part-time by the Department of Attorney 
General in the Criminal Prosecution Unit. She was the first 
woman appointed to the family court, appointed by Governor 
Garrahy, and she was the first woman appointed as its chief 
judge, appointed by Governor Donald Carcieri.
    Chief Judge Bedrosian has been a member of numerous boards 
and commissions dedicated to the improvement of justice for 
Rhode Island's children and families, and I welcome her, and I 
appreciate her testimony. Your Honor?

STATEMENT OF THE HONORABLE HAIGANUSH R. BEDROSIAN, CHIEF JUDGE, 
      RHODE ISLAND FAMILY COURT, PROVIDENCE, RHODE ISLAND

    Judge Bedrosian. Thank you for the invitation.
    Senator Whitehouse, actually I am very pleased to appear 
here today, and I was delighted to hear the comments of Mr. 
Listenbee and the fact that the Federal Government is indeed 
ready, willing, and able to begin talking to the States again 
about authorizing the Act so that we will continue to get the 
funding that we need to help all the youngsters who are so 
vulnerable in our State, either being in the juvenile justice 
area or in the child protection area.
    But I do want to point out, though, that Rhode Island, back 
in 1974, had Associate Justice Edward Healey, who was a member 
of the family court, and he then, that far back, had begun the 
discussions of how juvenile justice systems had to be 
rehabilitated with new methods of treatments. And he was one of 
the forerunners in the discussion regarding the issues 
regarding incarceration of youth for minor offenses. He was a 
member of the Task Force to Write Standards and Goals for 
Juvenile Justice and Delinquency Prevention for the 
President's--of course, then the President--National Advisory 
Committee on Criminal Justice, and he was a past president of 
the National College of Juvenile and Family Court Judges. The 
point that I am making is that for the last several decades, we 
have been hearing here at the family court about the need for 
advances in how we treat juveniles and children who are in need 
of child protection services.
    As we all know who have been in the system for so long, the 
1970's, 1980's, and 1990's brought many changes in the laws to 
protect juveniles, and I bring out as the example that In re 
Gault, of course, made sure that children had an attorney when 
necessary.
    In Rhode Island, we also have been providing attorneys and 
guardians ad litem for children who are in child protection 
services via DCYF.
    Rhode Island's Department of Children, Youth, and Families 
had become a separate department in our State because of the 
thoughtfulness of our legislators. And at that time, the State 
declared that we have a basic obligation to promote, safeguard, 
and protect the social well-being and development of the 
children of the State through comprehensive programs.
    So to put all of this in perspective, I am noting that when 
we first started these discussions in the 1970's, the United 
States was then enmeshed in a war in Vietnam; the feminists 
were demanding equality for good-paying jobs; the NAACP was 
seeking equality for people of color; and as we all know, today 
the issues regarding children and disproportionate minority 
contacts is the subject of one of our--it will be the subject 
of one of our discussions today.
    Congress enacted the JJDPA as the Office of Juvenile 
Justice and Delinquency Prevention became part of the 
Department of Justice. That is why I am appealing to you today. 
Rhode Island's Family Court was a special court created in 
1960. I practiced there in the 1970's. It was housed in an old 
building at 22 Hayes Street--which is now Nordstrom's, by the 
way.
    [Laughter.]
    Judge Bedrosian. And the holding cells in that basement 
held adults and juveniles. I visited them there. The juvenile 
and adult cells were separate cells, but indeed they were right 
next to one another so that the adults and the juveniles were 
able to converse with one another and to see one another. This 
new Garrahy Judicial Complex, which was built in the early 
1980's, does have a separate area for the youngsters. So the 
issue regarding sight and sound separation certainly has been 
discussed and accomplished here in Rhode Island.
    The Rhode Island Training School has a new state-of-the-art 
building to house incarcerated youth, and as you have pointed 
out, the numbers have changed dramatically. So Rhode Island has 
moved ahead to actively promote the well-being of our children, 
but we still have a lot of work to do.
    In the last 40 years, there were so many changes regarding 
children in our juvenile justice systems. In Rhode Island at 
the family court, we start our--let me stop. The cases that are 
referred for juvenile justice issues go to an informal hearing 
first. And Kevin Richard is here. He is the head of that 
department, and he will make a decision as to whether or not 
the initial cases are brought to a judge. Those cases can be 
handled informally with the assistance of a counselor, and many 
of those children never return.
    However, we do have those cases regarding the status 
offenders who are charged as well as the wayward and delinquent 
youth who are charged with, of course, wayward and delinquent 
offenses, and these are heard by the family court justices.
    The exception to some of those cases is the family court 
truancy calendar in which those petitions are heard in the 
schools where magistrates preside over the hearings. By having 
these cases in the schools, this assures that not only is the 
child being heard by a magistrate, but the professionals in the 
schools, such as the principal, the guidance counselors, and if 
they have social workers, they are all present to assist this 
youngster in finding programs.
    So I also want to discuss the issues of strengthening 
deinstitutionalization of status offenders because that is an 
issue that has been raised by the Federal Government. And I 
would like to explain that while the family court may advise a 
status offender at times that violation of a valid court order 
could result in an order for detention at the Training School, 
that order for detention is a rare order in the Rhode Island 
Family Court.
    However, for those youthful offenders who are detained for 
long periods of time, programs within the Training School are 
geared to educating the youth while treating their social as 
well as behavioral health issues. Rehabilitation remains the 
goal for all youth in our State, whether they are status 
offenders or wayward or delinquent youth, or the children who 
are in child protection services via the association with our 
Department of Children, Youth, and Families.
    I will tell you very truthfully that with proper timely 
services, many youth have become upstanding members of society, 
and those are the youngsters that will sometimes come back and 
talk to us and say, you know, ``I do want to thank the 
particular judge for helping me, because without the assistance 
of the State, I would not have the job that I wanted or go to 
the school that I am now attending.''
    Let me also state that youth who receive their high school 
diplomas are more apt to be employed. More than 10 years ago, 
these special truancy calendars that had been created have 
invested in those children and assigning them to classes so 
that they can receive their high school diplomas.
    You have referred to the comment, Mr. Listenbee, that 
sometimes the school dispositions will be referred to as the 
``pipeline to the prison.'' I went to a conference a couple of 
years ago. We had 2 days' worth of discussions on that issue, 
and the family court is dedicated to making sure that kids stay 
in school rather than get involved in the juvenile justice 
area.
    I have pointed out to you the issues that some of the 
magistrates hear at the truancy calendars, but I do want to 
point out that there are times that we do hear truancy cases 
with the justices. It is not an exclusive issue at the schools.
    The funding--and I want to thank you--from the OJJDP for 
the truancy calendars has benefited literally thousands of 
youngsters over the last 10 or more years. These hearings at 
the schools are referred to as ``diversion calendars.'' There 
is no prosecutor there. There is a school principal perhaps or 
there is a guidance counselor or a truancy officer, and the 
cases are heard in an informal setting. By assigning those 
hearings at the school, again, I point out all the participants 
who are interested in these youngsters can attend so that a 
proper program can be worked out.
    I do want to also applaud and thank you and, of course, 
those who are in your office, Mr. Listenbee, for the Federal 
funding for the family court's drug treatment calendars. They 
have also been a benefit for more than 2,400 youngsters over 
the last 10 years who have graduated from the drug treatment 
calendar. Retired Associate Justice Pamela Macktaz has presided 
over this calendar over the last couple of years, and she has 
been assisting youth and their families in overcoming the 
problems related to substance abuse.
    We also have our experienced counselors who work with the 
youth and their families. They work to assure the graduation of 
the youngster from the drug court calendar by using helpful and 
necessary social services in various drug treatments to help 
the drug-involved youth combat the use of illegal drugs and 
alcohol. I am confident today that I speak not only on behalf 
of those youngsters who have graduated but also their families, 
who will sometimes return to thank us for working with their 
youngsters and keeping them out of any additional troubles.
    So by virtue of the fact that we have had the funding for 
the drug treatment program, for the truancy programs, and for a 
mental health clinic that we have at the family court, the 
family court is very proud to say that it has been able to help 
more than, as I said, 2,400 in drug treatment and more than 
2,000 in the truancy calendars to benefit from programs.
    I applaud the work that the Committee is doing. I certainly 
am delighted to be able to support the work of this Committee 
in hoping that there is a reauthorization very soon.
    [The prepared statement of Judge Bedrosian appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Judge Bedrosian. We are 
going to work very hard to make sure that there is a 
reauthorization and try very hard to make it a bipartisan 
reauthorization so that this is a piece of legislation that can 
get through the rather hazardous legislative environment that 
prevails in Washington right now. But we have seen good success 
getting bills in a bipartisan fashion through the Judiciary 
Committee, and I hope to be able to find a way to have this 
follow that same successful path.
    Judge Bedrosian. And I am delighted to hear that, and I 
will always stress that the programs and the treatments that we 
provide at the court are keeping a lot of kids out of detention 
in their adult life.
    Senator Whitehouse. Our next witness, Elizabeth Burke 
Bryant, is executive director of Rhode Island KIDS COUNT, a 
children's policy and research organization founded in 1994 
that provides information on child well-being, stimulates 
dialogue on children's issues, and promotes accountability and 
action. Rhode Island KIDS COUNT provides policymakers, 
community leaders, and the news media with the best available 
data and information on children's health, education, safety, 
and economic security. The organization produces a quarterly 
Issue Brief Series, hosts a monthly cable television program, 
and publishes the annual famous Rhode Island KIDS COUNT 
Factbook.
    For 20 years, Rhode Island KIDS COUNT has tracked data on 
juvenile justice in partnership with the Rhode Island 
Department of Children, Youth, and Families and the Rhode 
Island Family Court. The organization also coordinates the 
Annie E. Casey Foundation's Juvenile Detention Alternatives 
initiative.
    Ms. Bryant is an adjunct lecturer in public policy at Brown 
University's A. Alfred Taubman Center for Public Policy and 
American Institutions. A native of Providence, Rhode Island, 
Ms. Bryant received a bachelor of arts degree from the 
University of Vermont and a law degree from the George 
Washington University Law School. Previous positions include 
policy director for the city of Providence, housing court 
prosecutor, consultant to the Rhode Island Housing Mortgage 
Finance Corporation, and the Rhode Island Foundation and the 
Women's Prison Mentoring Project.
    Ms. Bryant has been actively involved in several 
organizations, including Voices for America's Children, the 
United Way of Rhode Island, the Rhode Island Foundation, and 
the Local Initiative Support Corporation, and is the recipient 
of numerous awards, including the National Florette Angel Child 
Advocate of the Year Award, the Rhode Island Foundation's 
Community Leadership Award, the Paul W. Crowley Educational 
Advocacy Award, the Rhode Island Healthy Mothers Healthy Babies 
Coalition Silver Rattle Award, the Classical High School 
Distinguished Alumni Award, and the John Hope Settlement House 
Sterrett Award.
    So we are very, very glad to have Elizabeth Burke Bryant.

         STATEMENT OF ELIZABETH BURKE BRYANT, EXECUTIVE
  DIRECTOR, RHODE ISLAND KIDS COUNT, PROVIDENCE, RHODE ISLAND

    Ms. Bryant. Thank you very, very much, Senator. It is 
really an honor to be asked to testify today. Is this on? 
Great.
    Thank you, Senator Whitehouse, and also many thanks to 
Chairman Leahy and Members of the Senate Committee on the 
Judiciary for inviting me to testify regarding the 
reauthorization of the Juvenile Justice and Delinquency 
Prevention Act, JJDPA. I would also like to extend my 
appreciation to Administrator Listenbee for his leadership at 
the Office of Juvenile Justice and Delinquency Prevention and 
his visit to Rhode Island--it is great to have you in our 
State--as well as to Brother Michael Reis and Tides Family 
Services for hosting this important hearing.
    As an organization working to strengthen communities and 
improve the lives of youth and their families in Rhode Island, 
Rhode Island KIDS COUNT asks the Committee to reauthorize the 
JJDPA and make it work even better on the path to juvenile 
justice reform and success for our young people in the system.
    States across the country, including Rhode Island, have 
made considerable progress reducing the use of incarceration 
for juveniles over the past several years. I am going to just 
give you a few statistics from Rhode Island to set the stage 
and set some context.
    In 2010, the latest year for which national data are 
available, the rate at which States hold youth in secure 
confinement reached an over-35-year low, with almost every 
State reducing the number and percentage of youth held in 
secure facilities.
    Here in Rhode Island, between 2004 and 2013, the annual 
total number of youth in the care and custody of the Rhode 
Island Training School during the course of the year declined 
from 1,069 to 498. We have a chart in our testimony, Senator, 
that is one of those indicators going in the right direction. 
It shows a line graph pointing straight downward, although we 
still have work to do. Some of this----
    Senator Whitehouse. I should say that the full statement 
with the graph will be made a part of the record, as will the 
full statement of all of the witnesses.
    Ms. Bryant. Thank you, Senator.
    Some of this decline is due to the cap that was placed on 
the population at the Training School in July 2008. The cap was 
for 148 boys and 12 girls on any given day. The population has 
further declined by 44 percent between 2009 and 2013. The new 
facility, Training School facility that the chief judge 
mentioned, which was filled to capacity when it was opened in 
2009, had an average daily population of 83 youth during the 
first quarter of 2014. And just for comparison's sake, Senator 
Whitehouse I know you remember the days of youth sleeping on 
the mattresses of our Training School. In fact, we have looked 
into DCYF data, and the high in 2006 was 220 youth, and now we 
are down to 83. So that kind of shows the dramatic progress 
that did not happen overnight. It happened by a large number of 
strategies that were trying to prevent the incarceration of 
youth and started much earlier with prevention strategies, 
which I will get to in a moment.
    As you noted, Senator Whitehouse, in your opening remarks, 
crime has also fallen sharply over the past decade as juvenile 
justice systems have utilized more effective intervention and 
prevention strategies. In Rhode Island, the number of youth 
referred to family court for wayward and delinquent offenses 
declined 45 percent between 2007 and 2013, from 5,275 youth 
referred to family court to 2,926. During the same time period, 
the number of juvenile offenses declined by 40 percent, from 
8,301 to 4,964.
    The use of community Juvenile Hearing Boards and the family 
court's diversionary program that the chief has remarked about 
have been instrumental in preventing low-level and first-time 
offenders from the formal juvenile justice system, as have been 
many coordinated best practice, community-based, and family 
centered efforts in the community, such as ones that are used 
right here by Tides Family Services, others that are used by 
the Institute for the Prevention of Nonviolence, and many more. 
For youth who do become formally involved in the system, there 
is a growing recognition in Rhode Island that they can often be 
better served in the community utilizing alternatives to 
detention.
    Between 2007 and--actually, I am going to skip that because 
it is the chart that I just described.
    In 2009, Rhode Island juvenile justice stakeholders joined 
in partnership with the Annie E. Casey Foundation to become a 
statewide Juvenile Detention Alternatives Initiative, which we 
call JDAI. JDAI promotes the vision that youth involved in the 
juvenile justice system are often best served using proven, 
family focused interventions and creating opportunities for 
positive youth development. JDAI is now active in over 250 
sites in 40 States throughout the country.
    The Rhode Island JDAI effort, coordinated by Rhode Island 
KIDS COUNT, includes the support and participation of the 
family court, the Department of Children, Youth, and Families, 
the Office of the Attorney General, the Public Defender's 
Office, the Providence Police Department, Tides Family 
Services, the Institute for the Study and Practice of 
Nonviolence, Rhode Island for Communities and Justice, Family 
Services, Child and Family, and many, many more social service 
providers dedicated to preventing the escalation and overall 
youth involved in the juvenile justice system. Together, we 
have used JDAI's strategies to focus on reducing unnecessary 
and inappropriate use of secure confinement and enhancing 
community-based alternatives to detention.
    And the other remarkable thing about this initiative, 
Senator, is, as you well know, when you have people who are 
working in all parts of the system who seldom come together 
around the same table, you can really make a lot of progress, 
and that has been our experience with this initiative.
    Like many states, however, Rhode Island still has much work 
left to do to develop a comprehensive array of services that 
can prevent the need for overnight and brief stays in detention 
while appropriate alternatives are found.
    During 2013, more than half--around 54 percent--of stays at 
the Rhode Island Training School lasted less than 2 weeks.
    The positive trends that are occurring in Rhode Island and 
other States can be reinforced and supported by updating the 
JJDPA, which establishes minimum standards and provides 
critical funding for State and local juvenile justice systems. 
As you noted, the Act was last reauthorized in 2002, but few 
changes were made even at that time. More than a decade later, 
much more is known about what works and does not work to keep 
our communities safe and provide more opportunities for young 
people to reach their full potential.
    We recommend that the JJDPA reauthorization include the 
following policy improvements:
    First, keep youthful offenders and adult offenders 
separate--and some of these things I do want to point out, 
Senator, are meant to be national in scope and are not saying 
that we still have some of these things existing in Rhode 
Island. So in no way do I want to conflict with anything the 
chief has said, but we think it is important at these hearings 
to really speak out for all American youth, not just those in 
our State.
    Keep youthful offenders and adult offenders separate. The 
JJDPA, as you mentioned, requires sight and separation of 
juvenile and adult offenders held in secure facilities; 
however, this protection is not extended to youth tried or 
punished as adults. The reauthorization of the JJDPA should 
require States to house youth charged or convicted as adults in 
juvenile facilities until they reach adulthood.
    Next, prevent the confinement of status offenders by 
strengthening the Deinstitutionalization of Status Offenders, 
or DSO, core protection--another item you also mentioned, 
Senator--which prohibits the locked detention of status 
offenders. In recent years, many jurisdictions throughout the 
country have allowed the confinement of status offenders who 
violate a court order--for example, court orders not to truant. 
We recommend that this valid court order exception be 
eliminated.
    Next, strengthen the disproportionate minority contact core 
protection by requiring States to take concrete steps to reduce 
racial and ethnic disparities in the juvenile justice system. 
We recommend that States be required to use data to plan and 
implement strategies to reduce DMC and publicly report on 
progress. We have made major strides in reducing the number of 
young people at our Training School. However, we still report 
on disproportionality with our population here in Rhode Island.
    Next, provide safe and humane conditions of confinement for 
youth in State or local custody by prohibiting use of JJDPA 
funds for dangerous practices and encouraging States to adopt 
best practices and standards to eliminate dangerous practices 
and unnecessary isolation.
    Next, provide a research-based continuum of mental health 
and substance abuse services to meet unmet needs of court-
involved youth and their families, including diversion and 
reentry services.
    Next, establish accountability measures and data collection 
requirements that incentivize the timely transfer of 
educational records and communication with a youth's home 
school district or LEA so they do not lose school credit while 
they are incarcerated. These measures should also require that 
States demonstrate that incarcerated youth are reenrolled back 
in their schools or LEAs or other career training upon release.
    It would be remiss of me if I did not say that education 
reform is at the epicenter of our goals to reduce the pipeline 
of young people that ever enter the juvenile justice system. 
Sometimes these reauthorizations are in silos, just like some 
of our work is in silos. However, when we look at the education 
level of youth in the Training School, we know that these youth 
have been disconnected from their schooling or have been on the 
radar screen for years and years in terms of youth that are 
falling behind and need further intervention at the educational 
level. The average reading level of youth in the Training 
School is seventh grade. The average math level is sixth grade. 
And we know that 80 percent of low-income children in this 
country are not reading at grade level by the end of third 
grade. That is part of this work. And how you link the 
reauthorization to some of the really important work of 
education reform I think maybe is a key new ground that this 
reauthorization can make more explicitly about reducing the 
pipeline.
    Next, assist States in compliance with the JJDPA by 
establishing incentive grants to encourage States to adopt 
evidence-based and/or promising practices that improve outcomes 
for youth and their communities. For States that are deemed to 
be out of compliance with any of the core protections, the 
reauthorization should require JJDPA funds withheld for 
noncompliance to be set aside and made available to those 
States as improvement grants to help them with those particular 
protections.
    Next, enhance the partnership between States and OJJDP by 
expanding training, technical assistance, research and 
evaluation. Enhance the partnership between OJJDP and Congress 
by encouraging transparency, timeliness, public notice, and 
communication.
    The last one is to incentivize juvenile justice systems to 
ensure that all policies, practices, and programs recognize the 
unique needs of girls. Girls in the juvenile justice system 
enter with different personal and offense histories and needs 
than their male peers. Effective programs for girls in the 
juvenile justice system promote healing from trauma and abuse, 
address mental and physical health issues, and meet the needs 
of pregnant and parenting girls.
    Thank you, Senator Whitehouse, for your lifelong commitment 
to juvenile justice reform. And thank you to all of the Members 
of the Committee for the opportunity to testify today and for 
all of your work to improve the lives of youth involved in the 
juvenile justice system.
    As I close, I would like to especially thank you for 
conducting this hearing at Tides Family Services. Brother 
Michael and his staff are doing extraordinary work with youth 
and their families to help young people have a chance for a 
successful future. I often say this, he knows I say this 
everywhere around town: The work Brother Michael and his team 
do is life-saving work, and so is the work you are doing, 
Senator and Members of the Committee, to improve the Juvenile 
Justice and Delinquency Prevention Act through reauthorization.
    Thank you very much.
    [The prepared statement of Ms. Bryant appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much.
    Our final witness is Osbert Duoa who is a 20-year-old 
resident of Providence, Rhode Island. He is employed as a 
retail sales manager for Harvest Kitchen, and he acts as a 
mentor to young people at Tides Family Services, where he 
himself received services while in the juvenile justice system. 
Mr. Duoa? How did my pronunciation do?
    Mr. Duoa. I was just about to tell you, a point of 
correction. It is ``du-o.''
    Senator Whitehouse. ``Du-o.''
    Mr. Duoa. The ``A'' is silent.
    Senator Whitehouse. The ``A'' is silent. Thank you.

       STATEMENT OF OSBERT DUOA, PROVIDENCE, RHODE ISLAND

    Mr. Duoa. I would like to say good morning to everybody. 
Thanks for coming. Thanks for having me. My introduction is I 
am Osbert Duoa. I am 20 years old. I was born in Liberia in 
1994. I came to the U.S. with my mother when I was 5. We lived 
in Pawtucket.
    After a few years, my dad and my three brothers was sent to 
the U.S. I began getting in trouble when I was 14. I first got 
on probation, and during that time I was sent to California to 
stay with my dad. Me and him was not getting along as I was 
younger, so I hustled the best way I can to get some money 
because me and him was not getting along, so I figured let me 
go back to my mother's. And that is what I did. I earned up 
enough money, took the Greyhound, which was one trip, I 
believe. It was 200 and some change. I was 14. I did not know 
what I was doing, so I just took the bus. I stayed on the bus. 
I did not get off the bus. I asked people--it was--I ate 
McDonald's, so it was fun.
    When I arrived back to Providence, Pawtucket, nobody knew 
that I came back. So I was staying with a couple friends, and--
which I already had broken my probation, violated my probation. 
So I was ordered to spend some time in a Training School for 7 
months. And then there was a guy named Charles who also came to 
the Training School, introduced me to Tides Family Service. 
Being in Tides helped me grow and learn.
    There were different people. The Tides worker was very 
different. They really--they showed care, love. They was there 
for me. When I did not want to go to school, they would help me 
go to school on time, take me to work, and they took me to Six 
Flags, which I really liked.
    When me and my mom was fussing sometimes, they would take 
me out, talk to me, give me some advice. It was not like other 
counselors where you get they are just there for you and just 
take you out and not express theirself and tell you about, 
like, their life and how they was growing up. So for me, I kind 
of related to what they were saying and what they wanted to--
where they wanted to see me in life.
    I began to learn about life, and what I needed most was my 
mom, my job, people who cared about me. I started working with 
Harvest Kitchen, which is a culinary program. It was very good, 
awesome. I never knew how to make applesauce.
    [Laughter.]
    Mr. Duoa. Three kinds of flavors: original, strawberry, and 
cranberry.
    [Laughter.]
    Mr. Duoa. So I go there and I go home. My mom would say, 
``What do you do at work?'' ``Make applesauce.'' I would go to 
my other job. ``What do you do at work?'' ``Make applesauce.'' 
I am, like, ``I am going to turn into applesauce.''
    So one of my conductors is Jen Scott. She is real cool. She 
is here to support. So today I am a retail sales manager at 
Farm Fresh, which we do the farmers' market. If you are not 
familiar, I am there selling applesauce.
    [Laughter.]
    Mr. Duoa. And I am also selling some other products, 
produce. I really like doing the salesmanship and the business 
type of things, so I am involved in that. I am going on my 
third year. It has been fun.
    I am off probation. I got off at the age of 18, and I do 
not plan on going back on probation or getting in trouble.
    A good man once told me that you cannot be on both sides of 
the line. Either you are going to be in trouble, stay with the 
old friends, or you are just going to go straight ahead and 
just be a positive role model and be just like everybody in 
this room trying to do their job and wake up and help everyone 
else.
    So for me, when I do the farmers' market, I may not be in 
the best of moods because it is very early and I am trying to 
sell stuff. So I just got to put myself in that position where, 
if I can make somebody smile and I sell nothing that whole day, 
that is my--that is what I like to do.
    Well, thanks for having me. Thank you, Senator. I hope you 
go back to the White House and tell them about us.
    [Laughter.]
    Mr. Duoa. Thanks to everybody in this room again. Thanks to 
Tides Family Service. I would have never been able to do it 
without you. And also thanks for me getting in trouble because 
without me getting in trouble, I would not be able to be here 
in front of you all. So thank you, everybody. And thank you for 
coming from Philadelphia. If I missed you, I am sorry. Thank 
you. I know my story was not the best, but I am kind of 
nervous, so I am trying to explain.
    Thank you.
    [The prepared statement of Mr. Duoa appears as a submission 
for the record.]
    Senator Whitehouse. I think it was fine. I think it was 
fine. Very well done. Thank you, Osbert. I really appreciate 
it.
    Mr. Duoa. Thank you. Any questions? I am not nervous no 
more. Any questions?
    Senator Whitehouse. Good.
    [Laughter.]
    Senator Whitehouse. We will get there.
    Let me start with Judge Bedrosian. The downward trend that 
we have talked about and that Elizabeth documented, what do you 
think have been the key successful elements to that?
    Judge Bedrosian. Well, locally we have had the juvenile 
boards in the various cities and towns with----
    Senator Whitehouse. The juvenile hearing boards.
    Judge Bedrosian. Yes, which have taken on the cases of 
youthful offenders, first-time offenders usually, and been able 
to resolve whatever the issues were. And I think that has been 
of great benefit to some youngsters. I am very much a believer 
that when kids are in school and doing well, their 
opportunities to get out and get into trouble lessen. And I 
think the schools are doing a more comprehensive job of looking 
at kids who are truant and trying to assist them to make sure 
they stay in school. I can tell you that because I have the 
statistics from our truancy calendars that many of the 
youngsters that we see do not get involved in our juvenile 
justice cases.
    So I believe that that is also a benefit, the fact that we 
have taken a very long, hard look at the issues regarding 
truancy and brought them right into the schools to make sure 
the kids----
    Senator Whitehouse. Including the middle schools.
    Judge Bedrosian. Yes, to make sure that they stay in 
school. In fact, Angela Bucci Paulhus is one of the best 
representatives of the magistrates who have been in the schools 
because she has done this for a few years--I do not think I 
will give you all the years, but Angela has been doing this, 
and she has been a star, as far as I am concerned, in terms of 
helping all the other magistrates and the principals and all of 
the educators that she has worked with in finding ways to keep 
kids in school. I applaud people like Angela who are so 
dedicated, and the teachers as well as all of those educators 
who are so dedicated to making sure that kids stay in school. 
It is a very different atmosphere now. As you know, I started 
life as a school teacher, so I still have friends in the 
business, so to speak. But the atmosphere now is that we will 
do everything we possibly can, short of getting to the home and 
dragging the kid out of bed, to get them into school. And, 
frankly, one of our truant officers that we are very familiar 
with has done that a few times.
    So the issue has been raised. How do we keep kids in 
school? Every school comes up with some novel approach on how 
to make sure we get kids there. People have bought alarm clocks 
for the kids. There are those that call them. Those are 
obviously the very literally hands-on methods. But there is 
also the dedication of special education teachers who have 
worked out courses so that youngsters who have some learning 
disabilities will be able to accomplish what they need to 
accomplish. It is a benefit, as far as I am concerned, when 
sometimes the kids do get into the truancy programs because 
they find all these people who are willing to help them.
    So I give the people who work in those areas a lot of 
credit. I give the educators a lot of credit. The special 
education people are wonderful. So there are a number of things 
that I am understanding that the numbers of offenses are down, 
and the kids who are referred to the family court, those 
numbers are down also.
    But my understanding more recently, though, is that at 
Training School, I am told that there were 12 girls in the unit 
for a period of time, and they do receive some very good 
treatments, from what I have been told, and we have had the 
discussion that there is more attention being paid to the 
females who are part of the population of the Training School. 
But, frankly, it would be great if we could get the special 
funding for the girls. It took several years before they moved 
into the new state-of-the-art Training School.
    And one of the things that I always have found to be very 
offensive is the fact that I hear, well, there are not enough 
girls to create programs. That is not true. And the people who 
are working there now are creating the programs from what I 
have been told.
    Senator Whitehouse. There are two takeaways that I remember 
from looking at this issue as Attorney General. One was that 
when we looked back, we very often found, as you have said, 
that truancy was the first really strong signal of bad things 
to come and that it usually cropped up first in middle school. 
So it is terrific that you have responded to that.
    The other thing was the time spike during the course of the 
day. It was those hours between when school let out and when 
parents came home that caused a huge spike in activity. And 
have you noticed that the improvement in after-school programs 
has made a difference in----
    Judge Bedrosian. I do not have any stats on that, Senator, 
so I do not believe I can comment on whether or not the after-
school programs have made a change. We usually have our stats 
as to what is going on in school.
    Senator Whitehouse. Elizabeth, what is your observation on 
that?
    Judge Bedrosian. Do you have anything on that?
    Ms. Bryant. While we do not have a cause-and-effect study, 
we do know that during this time of decline, just in Providence 
alone, the Providence After-School Alliance has made good 
places for kids to be after school at the middle-school level 
for thousands of Providence kids a reality, and at the same 
time we have seen these numbers come down. So you are 
absolutely right that those bewitching hours of 3 o'clock to 6 
o'clock, having youth engaged in programs where there is a 
caring adult and a sense of their future that are somehow 
connected to schools so that the people in the schools know 
that these good things are going on after school are just a 
great recipe for reducing the pipeline. And you are right, it 
starts early.
    We track chronic absence in the Rhode Island KIDS COUNT 
Factbook, we track chronic early absence, K through 3rd grade, 
and there is a disturbing number of young children that are 
absent more than 10 percent of the school year, and schools 
across the State are really trying to get at that issue very 
early. We are also tracking middle and high school chronic 
absence. So all of these things, I think, when the numbers see 
the light of day and really people understand the significance 
of the problem, then community-based solutions can occur.
    I also want to thank Senator Picard and his colleagues at 
the General Assembly because last year or the year before, a 
law was passed in Rhode Island that said that out-of-school 
suspensions cannot be used by reasons of absence. It sounds 
like an obvious thing to do, not to give people an out-of-
school suspension for the issue of absence. And I think the 
Rhode Island law is a model for that, and many school boards 
across the State are really paying attention to that issue as 
well.
    Senator Whitehouse. The question of reentry is one that at 
the adult side has received very good bipartisan attention in 
Washington with the Second Chance Act, and we are working on 
that in sentencing reform as well, and we had, I think, some 
very good work on that in the bill that just passed out of the 
Senate Judiciary Committee in a very bipartisan fashion, 15-2. 
Even the two were bipartisan. It was a Republican and a 
Democrat who voted against it. So that was a pretty good sign.
    Let me start with Osbert. When you were leaving the 
Training School, how did you feel about the transition from 
that back to school? And what observations did you have about 
that experience? Then I will ask Ms. Bryant and Judge 
Bedrosian.
    Mr. Duoa. It was kind of difficult going back to school 
after being in there. Like I said, Tides helped me get to 
school and from school.
    Senator Whitehouse. What time of year did you come back to 
school?
    Mr. Duoa. I believe it was when school had just begun. I 
think I missed a month, like maybe in October or something.
    Senator Whitehouse. So everybody else had gotten to know 
each other in that first month, and then you show up.
    Mr. Duoa. Yes. It was--I was not really comfortable going 
back to school because it felt different from being 
incarcerated and having like the freedom of I do not have to go 
to school as when I was in there, I had to wake up every 
morning and go to school, and if I did not go to school, I 
would probably fight somebody and then get sent back to my room 
or--you know. So it felt like, all right, I am not going to go 
to school and blah, blah, blah, but Tides helped me. They took 
me back and from school.
    Senator Whitehouse. Judge, what do you think about the 
reentry concerns that we should be looking at, the transition 
from Training School or incarcerative settings back out to the 
community and to school?
    Judge Bedrosian. What I will tell you candidly, usually it 
depends on one or two persons who will encourage a youngster to 
think about completing their school assignments, and it is very 
important to have a mentor, and that is what I have learned 
over these many years, that mentoring is a very big issue. And 
if we can find someone who is dedicated to assisting a 
youngster, usually that person can convince them to get back to 
getting an education or looking for a field that you would like 
to work in. And it is very important to find that person.
    Senator Whitehouse. There is an observation I have heard 
repeatedly, so much so that it has really finally sunk in, and 
that is that kids who succeed in school can identify an adult 
in the school community who they believe really cares about 
them. And it is not a hypothetical question, yes, there is an 
adult out there that really cares about them. It is Mr. Smith, 
it is Mrs. Jones. They have that personal connection. And a lot 
of people have said that if that is there, then everything is 
on a much better slope; and if that is not there, you really 
are in trouble. And what you are saying is that that is true--
--
    Judge Bedrosian. That is a reality.
    Senator Whitehouse [continuing]. Not only in school but 
it's particularly true for this transition.
    Judge Bedrosian. It is. It really is. And there are 
mentoring programs out there to try to assist kids in either 
staying in school or going back to school. And the few times 
that I have talked to adults who have finally completed an 
education, that is what I have heard, that I had a particular 
teacher or a guidance counselor or even a truant officer who 
finally got to me and said, you know, if you just do X, Y, and 
Z, you can get a diploma and maybe go on to a trade school or 
to a college and get a job, and you do not have to be on 
probation for the rest of your life. And, of course, they are 
maturing at that point, too, a little bit.
    Senator Whitehouse. What are you seeing?
    Ms. Bryant. Well, I think this brings up a couple of points 
that should be emphasized, Senator.
    First of all, there is no question about the link between 
how children are doing academically and the possibility of them 
getting involved with the juvenile justice system, so the 
better work we do to keep them connected at school, doing well 
in school--and that does come by virtue of knowing, caring 
adults in the building. I see Superintendent Donoyan who tries 
to be doing that every day in Woonsocket. There is real 
research behind that, people knowing you and wanting you to 
succeed in the school building as well as, as we have said, 
some of these after-school programs, summer programs that 
really engage all of our young people with a vision of what 
they can be in life.
    I also think it is important to emphasize that when I 
mentioned community-based programs--and we are sitting in one 
right now--it is the relationships that those programs have 
with the young people and their families both to try to prevent 
incarceration and, if incarceration in a juvenile detention 
facility does happen, working with them in a step-down way to 
get them back integrated into the community and with a 
transition plan that works.
    And so I think oftentimes, not just in Rhode Island but in 
the rest of the country, when you look at those per young 
person costs of incarcerating them in the Training School--a 
few years ago in Rhode Island it was about $106,000 for one 
person. And when you think about what community-based 
alternative programs such as outreach and tracking here, what 
Teny Gross does, what Child and Family and Family Service do, 
it is a fraction of that. And yet those community-based 
programs are the ones that have to just every year fight for 
the dollars to even stay open.
    And so it is really time to look at cost-effective nature 
of what we are doing with our juvenile justice funds and ensure 
that those kinds of anything it takes and more, real family 
engaged, youth-engaged relationship building that these 
community-based programs do are supported. And not all of them 
reach high standards. So I think we need to be clear in our 
field that there needs to be accountability and results that 
are required of these community-based programs. They are not 
created equal. But for those that work, it just seems like it 
is not sensible for them to not feel as though sometimes they 
do not even have the dollars to know how many kids they are 
going to be able to help in the next year, given the dollars 
that saves in States, not just in Rhode Island but across the 
country, for every youth that you prevent from being in the 
Training School, how those dollars could be redirected.
    Senator Whitehouse. While we are on the subject of dollars, 
the OJJDP dollars have been more and more taken up with the 
four core elements that we talked about, and it is required--or 
provided less funding in other areas. Are you seeing 
reductions, Judge Bedrosian, in available funding for----
    Judge Bedrosian. Yes.
    Senator Whitehouse [continuing]. Things like training? How 
has that played out for you? What has been most painful or 
difficult?
    Judge Bedrosian. I do not know about the painful and the 
difficult, but what I can tell you is that, as you know, we 
have a great interest at the family court in maintaining our 
truancy calendars in the schools and being able to provide 
whatever services are necessary for the youngsters who are on 
the calendars, Senator. So if they have a need for some mental 
health services, then we want to make sure that there is a 
continuum of care for mental health services for youngsters in 
Rhode Island.
    We also want to make sure that we have places like Tides 
Family Service where they have the programs that the social 
workers go out every day to see the family. That daily response 
is critical to keeping a kid at home.
    And I can tell you candidly that about 3 or 4 years ago, I 
went out one night with one of the social workers, and we went 
to several of the homes here in Pawtucket. And I watched that 
social worker talk to those youngsters and get information out 
of them that no one could have gotten but for the fact that 
they had a special relationship.
    So I am very much a believer in the kinds of services that 
provide a person or persons who are specially known to these 
youngsters, and I would suggest very strongly that when the Act 
is reauthorized that everybody take a look at the programs 
where the kids see somebody, the same person or person, every 
single day. It works. I have known that there are kids that 
have been with Tides who stayed at home, who very well could 
have been at the Training School or in some other placement but 
for the fact that they had a social worker coming out every 
single afternoon or evening to see the family and to talk to 
them to find out what their needs are and to actually make sure 
that they are complying with whatever services have been 
afforded to them.
    So I feel very strongly about keeping kids at home if it is 
possible and not decimating the funding to these kinds of 
programs, which are so important. So I will leave you with that 
thought.
    Senator Whitehouse. Okay. Same question, Elizabeth.
    Ms. Bryant. I could not have said it better than she for 
that point.
    Senator Whitehouse. Perfect. Osbert, were there particular 
moments or circumstances that were kind of a turning point for 
you that you look back on and think of as a time when your 
thinking changed, your point of view changed, your attitude 
changed? Anything you can identify that would be helpful to 
this discussion about how to get kids going in the right 
direction?
    Mr. Duoa. Wow, that is----
    Senator Whitehouse. Or was it more kind of a slow and 
steady process with Tides of working around?
    Mr. Duoa. I think she said it. Have Tides and the social 
worker go out there for the kids. But more likely for me it 
was--it was just like an experience. I think we need more 
programs and stuff. It is just more of an experience for 
certain kids. Certain kids are going to listen and participate 
with the programs and the process that we are trying to do. It 
is more they have to do it or go through it themselves to 
understand that Tides is there for them or Harvest Kitchen is 
there for them or other programs are there for them.
    Senator Whitehouse. All right. Well, let me thank everybody 
for being here. I appreciate it very much. I understand that 
Chief Tavares from East Providence has joined us, too, so thank 
you very much for joining the other chiefs who are here.
    This is an official hearing of the U.S. Senate Judiciary 
Committee, and the record of it will remain open for an 
additional week, and anybody who wishes to add anything to the 
record is welcome to coordinate with my office. Lara Quint is 
behind me, and she is coordinating this, so if there is 
anything else you would like to add to the record, please feel 
free to do that.
    And let me again thank all of the witnesses who have shared 
their experience and their knowledge. I really think this has 
been very, very helpful, and I have known Judge Bedrosian and 
Elizabeth Burke Bryant for many, many years, and I am very 
proud of the service and the skill and the compassion that they 
bring to their work.
    Osbert, thank you so much for joining us, and 
congratulations on the choices that you have made.
    And, Mr. Listenbee, we thank you for coming to Rhode 
Island. As I said, you are a key player in these negotiations 
as they go forward, and we look forward to working very closely 
with you to drafting a bipartisan, effective JJDPA 
reauthorization that can move smoothly through the Senate.
    And, Brother Michael, again, thank you to you and Tides for 
hosting us and for all the terrific work that you do.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 10:33 a.m., the Committee was adjourned.]




                            A P P E N D I X

              Additional Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
